OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID’S SMALL
BUSINESS UTILIZATION
PRACTICES

AUDIT REPORT NO. 9-000-12-005-P
SEPTEMBER 27, 2012




WASHINGTON, D.C.
Office of Inspector General


September 27, 2012


MEMORANDUM

TO:                  OSDBU/MRC, Director, Mauricio Vera
                     M/OAA, Director, Aman Djahanbani

FROM:                IG/A/PA Director, Steven Ramonas /s/

SUBJECT:            Audit of USAID’s Small Business Utilization Practices
                    (Report No. 9-000-12-005-P)

This memorandum transmits our final report on the subject audit. In finalizing the audit report,
we considered your comments and included your response in Appendix II.

The final report contains ten recommendations to help USAID strengthen its small business
utilization program. Based on your response to the draft report, we determined that
management decisions have been reached on all ten recommendations. Please provide the
Audit Performance and Compliance Division of USAID’s Office of the Chief Financial Officer
with evidence of final action to close the recommendations.

Thank you for the cooperation and courtesy extended to the audit staff during this audit.




U.S. Agency for International Development
Office of Inspector General
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 4

     USAID Has Not Met All Small Business Utilization Goals ...................................................... 4

     Internal Controls Over Subcontracting Plans Were Not Sufficient.......................................... 6

     Data Quality in Acquisition Reporting Was Problematic......................................................... 9

     Guidance on the Small Business Program Was Outdated ................................................... 12

Evaluation of Management Comments.................................................................................. 14

Appendix I—Scope and Methodology ................................................................................... 16

Appendix II—Management Comments .................................................................................. 18

Appendix III—Fiscal Year 2011 USAID Procurement Scorecard.......................................... 25



Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
AIDAR           USAID Acquisition Regulation
eSRS            Electronic Subcontracting Reporting System
FAR             Federal Acquisition Regulation
FPDS            Federal Procurement Data System–Next Generation
FY              fiscal year
GLAAS           Global Acquisition and Assistance System
HUBZone         historically underutilized business zone
NAICS           North American Industry Classification System
OAA             Office of Acquisition and Assistance
OIG             Office of Inspector General
OMB             Office of Management and Budget
OSDBU           Office of Small and Disadvantaged Business Utilization
PSC             personal services contract
SBA             Small Business Administration
SUMMARY OF RESULTS
The Small Business Act declared ―that the Government should aid, counsel, assist, and protect,
insofar as is possible, the interests of small business concerns, . . . to insure that a fair
proportion of the total purchases and contracts or subcontracts for property and services for the
Government . . . be placed with small business enterprises‖ (Public Law 85-536, as amended).
The Small Business Act did the following:

    Created the Small Business Administration (SBA), which has the authority to establish small
    business utilization goals for other federal agencies annually.

    Required each federal agency to establish an Office of Small and Disadvantaged Business
    Utilization (OSDBU).

    Made the head of each agency responsible for implementing the small business programs.

    Required that all federal contracts worth more than $500,000 (or more than $1 million in
    construction contracts for public facilities) be accompanied by a formal subcontracting plan
    containing separate goals for small businesses.

SBA annually issues a small business procurement scorecard that (1) measures how well
federal agencies reach their small business goals, (2) provides accurate, transparent
contracting data, and (3) reports on agency-specific progress. Every 2 years, agencies and
SBA negotiate prime contracting and subcontracting goals for small businesses. In addition to
these, agencies set goals for categories of minority businesses: women-owned small
businesses, small disadvantaged businesses,1 service-disabled veteran-owned small
businesses, and small businesses located in historically underutilized business zones
(HUBZones). Goals for minority businesses are fixed at either 3 or 5 percent and not
negotiable.

According to USAID Acquisition Regulation (AIDAR) 719.271, OSDBU is responsible for
enhancing the use of small businesses and for ―developing policies, plans, and procedures for a
coordinated Agency-wide small business and minority business enterprise procurement
program.‖ OSDBU is required to cooperate with SBA, train and educate Agency staff on the
small business program, and act as a liaison between the Agency and the small business
community.

USAID’s Office of Acquisition and Assistance (OAA) in the Management Bureau oversees
procurement for the Agency. The office develops and maintains USAID's policies, regulations,
and standards on acquisition and assistance. OAA also collects and reports acquisition data to
the Federal Procurement Data System–Next Generation database (FPDS),2 as required by the
Federal Acquisition Regulation (FAR); SBA uses these data to monitor federal agencies’
progress on reaching their small business utilization goals.



1
   Small disadvantaged businesses are owned and controlled at least 51 percent by socially and
economically disadvantaged individuals.
2
  FPDS is the chief repository of acquisition information for the U.S. Government.

                                                                                               1
USAID’s Office of Inspector General (OIG), Performance Audits Division conducted this audit as
part of its fiscal year (FY) 2012 audit plan to determine whether USAID was achieving its small
business utilization goals agreed upon with the SBA.

Overall, USAID significantly increased its obligations to small businesses from FY 2009 to
FY 2011. The Agency steadily improved its scorecard grade from an F in FY 2009 to a C in
FY 2010 and to an A in FY 2011. Furthermore, from FY 2009 to FY 2011, obligations to small
businesses and to most minority businesses outpaced the 29 percent increase in the value of
eligible USAID contracts awarded during that time.3 USAID increased its obligations by:

    105 percent to small businesses
    74 percent to women-owned small businesses
    560 percent to small disadvantaged businesses
    1,270 percent to service-disabled veteran-owned small businesses

During this time, obligations to HUBZone businesses increased by only 7 percent.

The audit disclosed the following:

    USAID has not met all of its small business utilization goals (page 4). Because prime
    contracting and subcontracting goals for small businesses are weighted heavily on the
    scorecard, the Agency has steadily improved its grade while underperforming in relation to
    some minority businesses. In FY 2011, the Agency met only two of the five goals for prime
    contracting and had the same results for subcontracting. An Agency official expressed
    concern over small business utilization in FY 2012 because the Agency was still lagging on
    some goals.

    Internal controls over subcontracting plans were not sufficient (page 6). USAID could not
    review contractors’ proposed subcontracting plans or monitor and enforce approved
    subcontracting plans effectively because of weak internal controls and lack of clear Agency-
    wide policies and procedures. The Agency also had no mechanism to effectively track
    active prime contracts with approved subcontracting plans, and poor data entry made it
    difficult to monitor approved plans.

    Data quality in acquisition reporting was problematic (page 9). USAID’s Global Acquisition
    and Assistance System (GLAAS) has improved the overall quality of data reported to
    external sources. However, data used by SBA is still inaccurate and incomplete.

    Guidance on the small business program was outdated (page 12). USAID’s guidance on
    managing the small business utilization programs are either no longer applicable or
    nonexistent.

To address these problems and strengthen USAID’s small business utilization program, we
make the following recommendations:



3
  This value is the total dollars obligated on all prime contracts awarded using funds that are subject to the
FAR. This excludes contracts not covered by the FAR and those awarded with nonappropriated funds.
Examples of excluded contracts are awards used abroad and acquisitions made by agencies on behalf of
foreign governments or international organizations.

                                                                                                            2
1. OSDBU implement a plan to continually engage and educate the program and technical
   offices and contracting officers in the design phase of an acquisition activity (page 6).

2. OSDBU establish small business utilization goals by bureau and office (page 6).

3. OSDBU and OAA issue guidance that defines key areas of authority and strengthens
   policies and procedures over the review of proposed subcontracting plans and on
   monitoring and enforcing approved subcontracting plans (page 8).

4. OSDBU and OAA train procurement personnel on the review of proposed subcontracting
   plans and on monitoring and enforcing approved subcontracting plans (page 8).

5. OSDBU and OAA implement an Agency-wide mechanism to track active prime contracts
   that have approved subcontracting plans (page 9).

6. OAA fix the external reporting configuration error in GLAAS and document the result. In
   addition, actions that are not reported to the federal procurement data system must be
   identified and recorded according to Office of Management and Budget policies (page 11).

7. OAA correspond with the appropriate agencies to resolve how data on personal services
   contracts (PSCs) are reported in the federal procurement data system and document the
   resolution (page 11).

8. OAA reassess data entry and validation controls over key small business data elements and
   make the necessary adjustments to strengthen the controls in the information technology
   systems and document the results (page 11).

9. OSDBU and OAA implement guidance to reflect current operating policies and procedures
   for the small business utilization program (page 13).

10. OSDBU and OAA implement a plan to assess and strengthen controls over OSDBU’s
    automated screening of solicitations so that all required actions are routed appropriately,
    and document the results (page 13).

Detailed findings follow. Appendix I contains information on the audit’s scope and methodology.
Management comments appear in their entirety in Appendix II, and our evaluation of them is on
page 14.




                                                                                             3
AUDIT FINDINGS
USAID Has Not Met All Small
Business Utilization Goals
The SBA annual procurement scorecard measures an agency’s performance toward reaching
established goals for using small businesses. SBA’s grade is based on numerical values
assigned to three attributes: prime contracts (80 percent), subcontracts (10 percent), and the
Agency’s annual progress plan for meeting its small business utilization goals (10 percent).

USAID scored an A in FY 2011,4 whereas in FY 2009 it scored an F.5 Table 1 shows that in FY
2011, USAID exceeded its small business and small disadvantaged business prime contracting
goals, marginally missed its goals for women-owned small businesses and service-disabled
veteran-owned small businesses, and did not meet its prime contracting goal for HUBZone
businesses.

       Table 1. Prime Contracting Goals and Achievements for FYs 2009-2011 (Percent)

                                        FY 2009              FY 2010               FY 2011
               Category
                                     Goal   Achieved     Goal    Achieved      Goal    Achieved
    Small Business                   19.60      8.66     11.00      9.60       11.00     13.74
    Women-Owned Small Business         5.00      3.47      5.00       4.27      5.00       4.67
    Small Disadvantaged Business       5.00      1.50      5.00       5.54      5.00       7.67
    Service-Disabled Veteran-Owned
                                       3.00      0.25      3.00       1.26      3.00       2.65
    Small Business
    HUBZone Business                   3.00      0.71      3.00       0.28      3.00       0.58

Table 2 shows that in FY 2011, USAID exceeded its subcontracting goals for small businesses
and women-owned small businesses. However, it did not meet its goals for small
disadvantaged, service-disabled veteran-owned, and HUBZone businesses.

         Table 2. Subcontracting Goals and Achievements for FYs 2009-2011 (Percent)

                                        FY 2009              FY 2010              FY 2011
               Category
                                     Goal   Achieved      Goal   Achieved      Goal   Achieved
    Small Business                    40.30     12.84    22.30       45.20     22.30      22.90
    Women-Owned Small Business         5.00      1.95      5.00      18.60      5.00       5.50
    Small Disadvantaged Business       5.00      0.88      5.00       3.40      5.00       3.20
    Service-Disabled-Veteran-Owned
    Small Business                     3.00      0.04      3.00       0.10      3.00       0.00
    HUBZone Business                   3.00      0.20      3.00       0.60      3.00       0.30




4
  The FY 2011 SBA Small Business Procurement Scorecard for USAID appears in Appendix III.
5
  Through negotiations with SBA from FY 2009 to FY 2010, the Agency got its prime contracting goal
reduced by 44 percent and its subcontracting goal reduced by 45 percent.

                                                                                                  4
The Agency did not meet all of its small business component utilization goals for the following
reasons:

1. SBA excludes from its calculations funds spent overseas. Therefore, only funds obligated in
   the United States count toward SBA’s procurement scorecard. This limits USAID since most
   of its budget is spent overseas. In addition, between 50 and 60 percent of
   USAID/Washington’s budget consists of Global Health Bureau funds for pharmaceutical
   products, an industry that has very few small businesses.

2. USAID traditionally has awarded contracts to large contractors such as Chemonics
   International, Partnership for Supply Chain Management, and John Snow Inc. 6 This pattern
   compelled Congress to require USAID to issue congressional notifications for proposed
   acquisitions and assistance actions worth more than established amounts. The Conference
   Report on the Consolidated Appropriations Act, 2010,7 states:

       USAID's increased reliance on sole source contract awards, indefinite quantity
       contracts, and large umbrella awards undermines competitive processes, inhibits
       the participation of small organizations with niche expertise, limits creative and
       innovative approaches to programming, and is neither cost effective nor consistent
       with sustainable development. The conferees endorse the notification
       requirements in the House Report and the reporting requirement in the Senate
       Report, and require the USAID Administrator to consult with the Committees on
       Appropriations on steps that will be taken to reduce reliance on these mechanisms
       in the future.

3. AIDAR 719.271-5.a8 states:

       Since the procurement process starts with the establishment of a requirement,
       the actions of the cognizant technical officers [contracting officer’s
       representatives] can affect the opportunity of small business to participate
       equitably; therefore, each cognizant technical officer [contracting officer’s
       representative] shall, during the formulation of activities which will require
       contractual implementation: (a) consult with SDB [OSDBU] on the availability and
       capabilities of small business firms to permit making a tentative set-aside
       determination where appropriate.

    However, Agency officials whom the audit team interviewed stated that some USAID
    employees perceive that small businesses are unable to perform international development
    work. Therefore, they continue working with the same large businesses they have worked
    with previously, instead of pursuing and developing opportunities with small businesses.

4. Before FY 2011, USAID could not determine how its individual bureaus and offices
   contributed to the small business utilization goals. Therefore, OSDBU hired a contractor to
   implement a dashboard (a Web-based, interactive tool for compiling and displaying data
   graphically). This dashboard allows OSDBU to monitor how individual bureaus and offices

6
  These were the top three contractors in terms of obligations for FY 2011 (http://www.usaid.gov/work-
usaid/get-grant-or-contract/usaid-implementing-partnerships).
7
  H.R. Rep. No. 111-366 (2009) (Conf. Rep.).
8
  AIDAR uses the term cognizant technical officer, which was formally changed to contracting officer’s
representative effective January 1, 2012. AIDAR also uses SDB and OSDBU interchangeably.

                                                                                                    5
   are performing on small business utilization. However, OSDBU officials said that they could
   not establish small business utilization goals for USAID’s Washington bureaus and offices
   because of concerns about the quality of data (discussed in the finding on page 9).

OSDBU cannot compel Agency employees to contribute to meeting small business utilization
goals because the existing goals are not customized for bureaus and offices. OSDBU does
communicate the Agency-wide small business utilization goals annually to contracting officer’s
representatives and contracting officers. However, employees need goals tailored to their office
and bureau to effectively assist the Agency in meeting its goals. By not meeting small business
goals, USAID might not be allowing small businesses to obtain their fair share of USAID’s
purchases, contracts, and subcontracts. Therefore, we make the following recommendations.

   Recommendation 1. We recommend that the Office of Small and Disadvantaged
   Business Utilization implement a plan to continually engage and educate the program
   and technical offices and contracting officers in the design phase of an acquisition
   activity.

   Recommendation 2. We recommend that the Office of Small and Disadvantaged
   Business Utilization establish small business utilization goals by bureau and office.

Internal Controls Over
Subcontracting Plans Were
Not Sufficient

According to the Government Accountability Office’s Standards for Internal Control in the
Federal Government:

       A good internal control environment requires that the agency’s organizational
       structure clearly define key areas of authority and responsibility and establish
       appropriate lines or reporting. The environment is also affected by the manner in
       which the agency delegates authority and responsibility throughout the
       organization. . . . Internal control activities help ensure that management's
       directives are carried out. The control activities should be effective and efficient
       in accomplishing the agency's control objectives.

According to FAR 19.702:

       Any [prime] contractor receiving a contract for more than the simplified
       acquisition threshold must agree in the contract that small business, veteran-
       owned small business, service-disabled veteran-owned small business,
       HUBZone small business, small disadvantaged business, and women-owned
       small business concerns will have the maximum practicable opportunity to
       participate in contract performance.

Moreover, FAR 19.7 says that contracting officers are responsible for reviewing proposed
subcontracting plans, monitoring small business subcontracting, and enforcing small business
subcontracting requirements associated with awards to larger prime implementing partners.
FAR 19.706 further states, ―The administrative contracting officer is responsible for assisting in
evaluating subcontracting plans, and for monitoring, evaluating, and documenting contractor


                                                                                                6
performance under the clause prescribed in 19.708(b) and any subcontracting plan included in
the contract.‖

In addition, AIDAR 719.271 outlines the responsibility of contracting officers to include
applicable subcontracting clauses in all contracts in which they are required and for OSDBU to
―cooperate with contracting officers in administering the performance of contractors subject to
the . . . clauses.‖

Finally, prime contractors are responsible for submitting two reports—the Individual Subcontract
Report and the Summary Subcontract Report—using the Electronic Subcontracting Reporting
System (eSRS). FAR 19.704 specifies how frequently these reports are to be submitted. While
contracting officers are required to acknowledge receiving these reports, FAR 19.705-6(h)
further notes:

       Acknowledging receipt does not mean acceptance or approval of the report. The
       report shall be rejected if it is not adequately completed, for instance, if there are
       errors, omissions, or incomplete data. Failure to meet the goals of the
       subcontracting plan is not a valid reason for rejecting the report.

During our audit, we found that OAA and OSDBU did not have proper internal controls to review
proposed subcontracting plans and to monitor approved subcontracting plans. The problems
are outlined below.

Subcontracting Plans Not Reviewed, Monitored, or Enforced. Neither OAA nor OSDBU is
formally assigned authority and responsibility for reviewing proposed subcontracting plans or
monitoring and enforcing approved subcontracting plans. The audit team made the following
observations about oversight of subcontracting plans:

   OAA does not routinely monitor or verify how prime contractors report on their
   subcontractors. In fact, OAA officials could not identify which office was responsible for
   monitoring subcontracting plans.

   OAA is responsible for training contracting officers on their responsibilities for subcontracting
   plans. However, an OIG survey of Washington-based contracting officers revealed that only
   40 percent of respondents had a ―High‖ knowledge of subcontracting requirements for prime
   contractors. This lack of clear guidance and training has hindered contracting officers from
   properly managing prime contracts with approved subcontracting plans.

   Neither OSDBU nor OAA monitored subcontracting plans before OSDBU hired a senior
   small business specialist in 2011.

Contracting officers rely on AIDAR and Automated Directives System (ADS) for guidance;
however, neither states whether OSDBU or OAA is responsible for monitoring approved
subcontracting plans. AIDAR simply states that OSDBU is responsible for ―cooperating with
contracting officers in administering the performance of contractors subject to the . . .
subcontracting program clauses.‖ ADS does not cover the review of subcontracting plans or
their monitoring. Agency officials have referenced the FAR as guidance; however, the Agency
does not have policies and procedures to implement subcontracting plan reviews or the
monitoring of approved plans to implement the FAR.



                                                                                                  7
In the past, OSDBU officials said the office could not implement procedures and processes to
review proposed subcontracting plans and could not monitor approved subcontracting plans
because it did not have the resources to do so. Consequently, USAID’s procurement reform
initiative provided OSDBU with additional funds to hire a senior small business specialist in
2011 to oversee subcontracting plan compliance and perform other duties. Since then, OSDBU
has improved its subcontracting compliance review and has told the acquisition community
about this change by e-mail. However, the Agency’s guidance still does not cover OSDBU’s
subcontracting compliance review.

Absent effective monitoring, the Agency cannot determine whether prime contractors are
making all efforts to subcontract with small businesses. Small businesses interested in working
with USAID could be adversely affected, as they may not be able to obtain experience working
on contracts directly with the Agency. As a result, the Agency’s grade on SBA’s scorecard may
be affected. In addition, without monitoring the Agency cannot properly enforce FAR 19.705-7,
which allows federal agencies to collect liquidated damages when a contractor fails to make a
good faith effort to comply with a subcontracting plan. Finally, some contracts may have been
awarded without the required subcontracting plans. Therefore, we make the following
recommendations.

      Recommendation 3. We recommend that the Office of Small and Disadvantaged
      Business Utilization and the Office of Acquisition and Assistance issue guidance that
      defines key areas of authority and strengthens policies and procedures over the review
      of proposed subcontracting plans and on monitoring and enforcing approved
      subcontracting plans.

      Recommendation 4. We recommend that the Office of Small and Disadvantaged
      Business Utilization and the Office of Acquisition and Assistance train procurement
      personnel on the review of proposed subcontracting plans and on monitoring and
      enforcing approved subcontracting plans.

Data Reported Were Not Accurate. The FAR states that contracting officers within OAA are
responsible for reviewing prime contractors’ self-certified numbers in eSRS on small business
utilization. Before January 2012, there was no process to review numbers reported by prime
contractors. However, since January 2012, OSDBU, and not OAA, has been conducting these
reviews and following up with contracting officers. In conducting these reviews, senior small
business specialists found evidence that some numbers that prime contractors reported were
wrong.

The audit examined data accuracy and found instances in which the contracting officer had
entered data incorrectly, preventing prime contractors from accessing eSRS. If a contracting
officer does not accurately enter a key data element in FPDS,9 a prime contractor cannot
access eSRS to submit the required electronic forms. Consequently, we found that some prime
contractors were still submitting paper forms, contrary to FAR 19.704, which requires electronic
submissions. A prime contractor’s inability to access eSRS could be a factor explaining why the
figures reported in the system were inaccurate.

Moreover, the same data elements determine whether an active contract with an approved
subcontracting plan will be listed in FPDS and eSRS. OSDBU officials did not rely on reports
from FPDS or eSRS because they are inaccurate. Because of these data input errors, the

9
    An example of a key data element is ―Subcontracting Plan Required.‖

                                                                                               8
Agency cannot compile an accurate list of active contracts with approved subcontracting plans.
Without an effective tracking mechanism that provides a complete, accurate list, the Agency
cannot tell which contracts have approved subcontracting plans and, therefore, cannot monitor
and enforce them. Therefore, we make the following recommendation.

     Recommendation 5. We recommend that the Office of Small and Disadvantaged
     Business Utilization and the Office of Acquisition and Assistance implement an Agency-
     wide mechanism to track active prime contracts that have approved subcontracting
     plans.

Data Quality in Acquisition
Reporting Was Problematic
FAR 4.6 requires that executive departments and agencies collect and report acquisition data to
FPDS. SBA uses FPDS data to monitor how federal agencies are performing on small business
utilization goals and to produce the ―Small Business Goaling Report,‖ which reports on small
business dollars, contracts, and percentages for each Agency.

According to FAR 4.603, USAID must report all transactions worth more than the micropurchase
threshold (currently $3,000) and modifications to those transactions regardless of dollar value
(including no-cost modifications). The Office of Federal Procurement Policy, in the Office of
Management and Budget (OMB), is required to establish a computer-based federal
procurement data system for collecting, developing, and disseminating procurement data to
Congress, the executive branch, and the private sector. In 2003, the system was modernized,
and FPDS became the chief repository for acquisition information. A May 31, 2011, OMB
memorandum on improving federal procurement data quality highlights its importance:

        Complete, accurate, and timely federal procurement data are essential for
        ensuring that the government has the right information when planning and
        awarding contracts and that the public has reliable data to track how its tax
        dollars are being spent. The quality of this information depends on agencies
        having strong internal controls for the input and validation of Agency data entered
        in the [FPDS] and other acquisition information systems.

Although OAA is responsible for reporting USAID acquisition data to FPDS, not all transactions
are reportable. For example, PSCs10 should not be reported to FPDS. SBA’s ―Goaling
Guidelines for the Small Business Preference Programs‖ states that PSCs that are issued under
5 U.S.C. 3109 (FAR Part 37) are contractors that ―are treated as employees by the IRS and
[USAID] rather than [as] contractors. Employee salaries are not reportable contracts, so these
are not reported.‖ In addition, SBA does not allow funds obligated overseas to be counted
toward small business goals.

Contracting officers connect directly with FPDS through GLAAS.         Key data fields in
GLAAS/FPDS for small business reporting are ―Place of Performance,‖ ―CO’s Determination of




10
    FAR 37.104 states, ―A personal services contract is characterized by the employer-employee
relationship it creates between the Government and the contractor’s personnel.‖

                                                                                              9
Bus. Size,‖ and ―North American Industry Classification System‖ (NAICS).11 Contracting officers
are required to enter and validate data in FPDS before completing an action in GLAAS and
obligating the funds.

GLAAS has improved the overall quality of data externally reported. However, problems still
exist in USAID’s reporting of acquisition actions because of a software configuration error,
actions erroneously reported to FPDS or included in the small business goaling report, and data
input errors.

In January 2012, OSDBU reported to SBA in its initial FY 2011 scorecard report that USAID had
achieved 17.11 percent in prime contracts awarded to small businesses, reaching that goal and
three others out of five for prime contracting. However, in April 2012, OSDBU discovered that
this figure in FPDS was actually 13.74 percent and that only two prime contracting goals had
been reached.

OAA determined that a combination of configuration and user errors allowed three modifications
to a Global Health Bureau supply chain management contract for FY 2011 totaling $260 million
to bypass reporting to FPDS. Although the GLAAS configuration error was not exclusive to
small business transactions, it led OSDBU to overstate the Agency’s FY 2011 small business
achievements in its initial progress report to SBA.

OAA corrected the health contract modifications in FPDS. Subsequently, OAA discovered
323 more actions totaling $124 million for FYs 2009 to 2012 that were not reported to FPDS as
of June 2012. According to OAA, the vendor would fix the configuration error in July 2012.

Since PSCs are considered Agency employees and not contractors, they should not be reported
to FPDS. Below are PSC transactions that OAA reported to FPDS.12

     FY 2011—380 new PSC awards totaling $26,359,342
     FY 2010—415 new PSC awards totaling $27,214,122
     FY 2009—680 new PSC awards totaling $34,361,142

OAA explained that PSCs were entered into GLAAS as a contract action and that it is difficult to
differentiate PSCs from other actions reported to FPDS. Therefore, these actions were reported
to SBA, potentially affecting the Agency’s small business achievements. OAA officials said they
corresponded with OMB about the PSC reported data, but the issue still has not been resolved.

Data input and validation controls in GLAAS should be strengthened to mitigate errors. For
example, some contracts obligated overseas are erroneously being included in the SBA’s
goaling report. The audit identified hundreds of mission actions and their associated value that
should not have been included in the goaling report.

     FY 2011—213 mission actions totaling $20,115,100

11
   The SBA has issued standards for qualifying as a small business. The standards are based on the
number of employees or average annual receipts. There are also standards for types of economic
activity or industry, and they are based on the business’s NAICS classification (the codes federal
statistical agencies use to classify businesses for reporting on the U.S. economy). Therefore, if a
business is to be considered a small business, contracting officers must use the proper NAICS code.
12
   Data extracted for PSC transactions covered only new awards between $3,000 and $150,000 issued
from FY 2009 to FY 2011.

                                                                                                10
   FY 2010—130 mission actions totaling $13,899,327
   FY 2009—155 mission actions totaling $8,743,892

These actions were included in the report because the ―Place of Performance,‖ a data element
that is entered manually by the contracting officer, may have been incorrectly coded as ―US‖
(United States). According to the FPDS manual, the ―Place of Performance‖ field ―should reflect
where the items will be produced, manufactured, mined, or grown or where the service will be
performed.‖ Due to USAID’s global presence, the Agency needs to clarify this definition in its
guidance and communicate it to contracting officers.

Another deficiency in data input and validation controls was the misclassification of large
businesses as small businesses. For example, the audit disclosed that contracting officers had
incorrectly classified large businesses such as Citibank South Dakota, Kenwood U.S.A.
Corporation, Motorola Solutions, and Amazon.com as small businesses.

According to an OIG survey of Washington-based contracting officers, the Agency does not
provide sufficient training about the small business program, nor does it have enough useful,
practical tools for contracting personnel to reference during the procurement process. The OIG
survey of Washington-based contracting officers demonstrated that:

   45 percent of respondents had not received FPDS training during the past 3 years.

   Only 42 percent were ―very comfortable‖ entering information about a contract awarded to a
   small business into GLAAS and FPDS.

   Only 42 percent ―always‖ verified a small business self-certification before issuing an award.

   58 percent said they had low to medium knowledge of NAICS codes and their relationship to
   small business programs.

These deficiencies hinder contracting officers from effectively contributing to the success of the
small business program. In addition, problems with data quality have a significant effect on how
USAID reports acquisitions in FPDS, which SBA, OSDBU, and other stakeholders rely on to
make important decisions.       To address data quality issues, we make the following
recommendations.

   Recommendation 6. We recommend that the Office of Acquisition and Assistance fix
   the external reporting configuration error in Global Acquisition and Assistance System
   and document the result. In addition, actions that are not reported to the Federal
   Procurement Data System must be identified and recorded according to Office of
   Management and Budget policies.

   Recommendation 7. We recommend that the Office of Acquisition and Assistance
   correspond with the appropriate agencies to resolve how personal services contracts
   data are reported in the Federal Procurement Data System and document the resolution.

   Recommendation 8. We recommend that the Office of Acquisition and Assistance
   reassess data entry and validation controls over key small business data elements and
   make the necessary adjustments to strengthen the controls in the information technology
   systems and document the results.


                                                                                               11
Guidance on the Small Business
Program Was Outdated
According to Standards for Internal Control in the Federal Government, ―Internal control
activities help ensure that management's directives are carried out.‖ These activities are
defined by the policies and procedures of an organization, like the Agency’s ADS. Furthermore,
ADS 501.3.713 says that ADS materials must be reviewed and modified regularly to keep them
current and consistent with laws and regulations, sound policy, and management practices.
Material that is no longer relevant or necessary can be eliminated. In addition, AIDAR 701.301
states that, subject to the direction of the Administrator, the OAA director is responsible for
developing and maintaining uniform procurement policies, procedures, and standards.

USAID developed policies, procedures, and standards to manage its small business utilization
program. However, these guidelines, as outlined in AIDAR 719 and ADS 321, are either no
longer applicable or unsuitable to OSDBU’s current operations. Below are five examples that
show how the Agency’s guidance is outdated.

1. AIDAR 719.271-6 says that OSDBU must, with limited exceptions, screen all
   USAID/Washington proposed contract actions in excess of the simplified acquisition
   threshold. According to guidance, the Small Business/Minority Business Enterprise
   Procurement Review Form (Form USAID 1410-14), must be prepared as part of the
   screening process. However, GLAAS automated the screening process, rendering the
   paper-based process obsolete.

      Moreover, under the new system, solicitations worth more than $100,000 are supposed to
      be automatically routed to OSDBU for review and to OAA for approval. OSDBU officials
      said they have received few solicitations through GLAAS and did not know the reason this
      was happening. Since OSDBU does not always receive solicitations for approval, there is a
      risk that small businesses may have not been solicited or considered.

2. AIDAR 719.273-10 gives an overview of the internal controls for USAID’s Mentor-Protégé
   Program, under which contractors mentor small businesses so that eventually they can
   perform contracts or subcontracts for USAID and other federal agencies. The review of
   financial reports and invoices submitted by the mentor is a key control because it verifies
   that the mentor does not charge USAID for providing developmental assistance to the
   protégé (mentoring costs are not reimbursable as direct costs under USAID contracts but
   may be considered in determining the mentor’s indirect cost rates). Although required by
   AIDAR, OSDBU does not review mentors’ financial reports and invoices for protégé
   development costs. Responsibility for reviewing invoices should not have been assigned to
   OSDBU. The contracting officer managing the implementation of the contract is responsible
   for reviewing invoices submitted against it.

      OSDBU sends an e-mail to the contracting e-mail group when a new Mentor-Protégé
      Program contract is implemented. In addition, it relies on its intranet site to keep contracting
      officers informed. However, OIG’s survey revealed that 76 percent of respondents either
      never visited OSDBU’s intranet site or visit it only annually for specific information.
      Contracting officers overseeing contracts awarded to mentors may not be aware of the

13
     ADS 501 was updated August 3, 2012. This citation refers to the August 5, 2011, version.


                                                                                                   12
     program and may not have reviewed invoices for related protégé development costs.
     Therefore, there is a risk that ineligible costs14 may be invoiced to USAID (although no
     evidence of this came to light during the audit).

3. AIDAR 719.271-2 (4) requires OSDBU to develop and maintain a consultant registry
   information system which identifies entities that can provide contracting services to USAID.
   However, after the Paperwork Reduction Act took effect, OSDBU officials could no longer
   require small businesses to register with their office. The U.S. Government now relies on a
   single database called Central Contractor Registration for a list of registered contractors. A
   business that wants to be classified under a small business program must self-certify in the
   database.

4. Agency guidance does not mention current market research tools that are available to
   OSDBU and OAA. For example, in August 2011, OAA implemented the Vendor Information
   Search Utility. It is linked to Central Contractor Registration and has enhanced search
   capabilities, including multiple small business search elements.

5. USAID established the Board for Acquisition and Assistance Review in February 2010 to
   respond to congressional notification requirements. OSDBU’s director was made a board
   member so that small business concerns would be considered and promoted in large
   acquisitions. However, aside from an Agency notice of February 17, 2010, and guidance on
   Leader with Associates awards, auditors located no further directive or regulation that
   mentions this board or the OSDBU director’s role on it.

The Agency did not update or modify policies and procedures to reflect regulatory and
operational changes concerning the small business utilization program because personnel who
were responsible for updating guidance were unaware that some policies and procedures were
no longer applicable or unsuitable for OSDBU’s current operations.

The lack of clear, up-to-date policies and procedures has created gaps and inconsistencies in
how the small business utilization program is managed. Additionally, Agency personnel do not
have guidance to make informed decisions that could affect the small business program.
Therefore, we make the following recommendations.

     Recommendation 9. We recommend that the Office of Small and Disadvantaged
     Business Utilization and the Office of Acquisition and Assistance implement guidance to
     reflect current operating policies and procedures for the small business utilization
     program.

     Recommendation 10. We recommend that the Office of Small and Disadvantaged
     Business Utilization and the Office of Acquisition and Assistance assess and strengthen
     controls over the Office of Small and Disadvantaged Business Utilization’s automated
     screening of solicitations so that all required actions are routed appropriately and
     document the results.




14
  The ADS Glossary defines ineligible costs as those questioned by the auditor because they violated a
provision of a law or other agreement or document governing the expenditure of funds, or were
unnecessary or unreasonable.

                                                                                                   13
EVALUATION OF MANAGEMENT
COMMENTS
On the basis of information provided by OSDBU and OAA in response to the draft report, we
determined that management decisions have been reached on all ten recommendations.

Recommendation 1. OSDBU will implement its engagement and education plans for program,
technical, and acquisition staff. By December 31, 2012, OSDBU will meet with each bureau and
independent office to negotiate small business goals and discuss upcoming acquisition
activities. OSDBU will also participate in bureaus’ monthly acquisition meetings and provide
them with acquisition planning guidance. Furthermore, OSDBU plans to deliver additional
training on small business topics to program, technical, and acquisition staff. Accordingly, a
management decision has been reached.

Recommendation 2. OSDBU is establishing small business utilization goals by bureau and
office. In June 2012, OSDBU launched a pilot program to set small business goals for eight
USAID bureaus and independent offices. By December 31, 2012, OSDBU expects to have set
small business goals for all remaining bureaus and offices. Additionally, OSDBU will begin
tracking small business awards issued by USAID missions. Accordingly, a management
decision has been reached.

Recommendation 3. OSDBU and OAA are taking steps to develop guidance defining key
areas of authority and strengthening policies and procedures on subcontracting plans. The
offices are working together to award a contract to a small business with expertise in rule
making to analyze the applicability of SBA requirements to the bulk of USAID’s work.
Specifically, the analysis will determine whether USAID can require prime contractors to submit
subcontracting plans even when contract performance takes place outside the United States.
In the interim, the offices will draft and issue a procurement executive bulletin to clarify when
subcontracting plans are required, the process for obtaining OSDBU clearance on the plans,
and key roles and responsibilities for monitoring their use. The offices expect to issue the
bulletin in FY 2013. Additionally, OSDBU is adding to its dashboard the ability to list contracts
that may require subcontracting plans. Accordingly, a management decision has been reached.

Recommendation 4. OSDBU will deliver training to acquisition personnel on subcontracting
plans in FY 2013. Specifically, OSDBU will train acquisition personnel on their monitoring roles
and responsibilities, the required elements for subcontracting plans, and the use of eSRS. The
training will incorporate feedback from OSDBU’s first subcontracting training for USAID prime
contractors, held September 2012 and covering relevant regulations, reporting requirements,
and eSRS. Accordingly, a management decision has been reached.

Recommendation 5. OSDBU and OAA are implementing an Agency-wide mechanism to track
active prime contracts with approved subcontracting plans. The offices are developing a
procurement executive bulletin, to be implemented in early FY 2013, which requires electronic
copies of subcontracting plans to be provided to the OSDBU subcontracting program manager.
Furthermore, OSDBU’s Subcontracting Program Manager will maintain electronic copies of the
subcontracting plans received and a spreadsheet to track approved plans through contract



                                                                                              14
closeout. OSDBU expected to implement this process in October 2012. Therefore, a
management decision has been reached.

Recommendation 6.       Evidence provided by OAA, after OIG received management’s
comments, demonstrated that the office fixed the external reporting configuration error in
GLAAS in August 2012. In addition, OAA sent an Agency-wide electronic message from
GLAAS about how to finalize data in FPDS. Also, OAA’s guidance manuals for GLAAS address
finalizing data in FPDS to avoid reporting errors in the future. Therefore, a management
decision has been reached.

Recommendation 7. OAA considers it unnecessary to correspond with other agencies about
how PSCs are reported to FPDS. Given USAID’s statutory authorities for contracting for
personal services, OAA considers PSCs definitive contracts and will report them to FPDS as
required by FAR 4.606. Nonetheless, OAA will continue to work with OSDBU to identify
personal service contracts that are not to be included in the calculation of small business goals.
Accordingly, a management decision has been reached.

Recommendation 8. OAA will implement adjustments to strengthen controls in GLAAS to
facilitate OSDBU’s review of prime contract actions and subcontracting plans before soliciting
and awarding future contracts and modifications. OAA’s adjustments to GLAAS will include
adding mandatory questions during the solicitation and preaward stages for contract actions at
or above $25,000, and developing a report query to track subcontracting plans. OAA expects to
complete implementation during the first quarter of FY 2013. Accordingly, a management
decision has been reached.

Recommendation 9. OSDBU and OAA will review and implement guidance to reflect current
operating policies and procedures for the small business utilization program. Specifically, the
offices will incorporate language explaining the role of the Board for Acquisition and Assistance
Reform into ADS and create a new Small Business Program Manual by the end of FY 2013.
Additionally, the offices will revise the AIDAR to clarify that costs associated with the Mentor
Protégé Program are not allowable under any USAID contract. Guidance on this matter will
also be issued to contracting officials. Accordingly, a management decision has been reached.

Recommendation 10. OSDBU and OAA are strengthening controls so that all required
contract actions are appropriately routed to OSDBU for screening. OAA will create a rule in
GLAAS that automatically routes required actions at or above $25,000 to OSDBU for review
before solicitation and award of the contract. OSDBU revised its Small Business Review Form
to ensure that contracting officials meet market research requirements, consider small business
concerns, and address subcontracting. The offices expect to implement guidance and
adjustments to GLAAS during the first quarter of FY 2013. Accordingly, a management decision
has been reached.




                                                                                               15
                                                                                    Appendix I



SCOPE AND METHODOLOGY
Scope
OIG conducted this performance audit in accordance with generally accepted government
auditing standards.      Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions.

The objective of the audit was to determine whether USAID was achieving its small business
utilization goals agreed upon with the SBA. OIG conducted the audit in Washington, D.C., from
March 6, 2012 to July 31, 2012. The primary offices of interest were OSDBU and OAA. Our
audit focused on the period of October 1, 2009, through September 30, 2011 (FY 2009 to
FY 2011). In planning and performing the audit, we assessed the offices’ management controls
related to the small business programs and subcontracting plans. This control assessment
included a review of guidance listed below, delegation of authority regarding subcontracting,
and current operating procedures that OSDBU and OAA utilize to manage the small business
program and subcontracting plans. In addition, a review of OAA’s FPDS annual data quality
assessments for FY 2010 and FY 2011.

Methodology
To answer the audit objective, the audit team conducted interviews with USAID’s OSDBU and
OAA personnel. To obtain an understanding of the regulations that govern the small business
program and reporting requirements, the team reviewed criteria including the Small Business
Act, applicable parts of the FAR, and guidance provided by SBA. The audit team obtained
procurement scorecards issued by SBA for FYs 2009–2011 to assess past performance on
small business goals. To review management’s control standards, the audit reviewed:

   Government Accountability Office, ―Standards for Internal Control in the Federal
   Government,‖ November 1999.

   AIDAR, ―A Mandatory Reference for ADS Chapter 302,‖ revised June 10, 2011.

   ADS Chapter 321, ―Small Business Programs, Disadvantaged Enterprises and Minority
   Serving Institutions,‖ revised December 30, 2011.

To gain an understanding of the data quality and the relevant information technology systems,
the audit team conducted interviews with OSDBU personnel and the external contractor
overseeing OSDBU’s dashboard. To assess the quality of acquisition data reported externally,
the audit team relied on data extracts from FPDS and GLAAS. The audit team pulled data
directly from FPDS, which is publicly available; extracts from GLAAS were provided by OAA. In
addition to the FAR, the criteria for data assessment included.

   The Office of Federal Procurement Policy’s Letter on ―Improving Federal Procurement Data
   Quality – Guidance for Annual Verification and Validation,‖ May 31, 2011.



                                                                                            16
                                                                                  Appendix I


   FPDS Government User’s Manual, Version 1.4, April 2012.

   SBA’s ―Goaling Guidelines for the Small Business Preference Programs for Prime and
   Subcontract Federal Procurement Goals & Achievements,‖ July 3, 2003.

In addition, we sent a survey to contracting officers based in USAID/Washington about their
knowledge and training concerning the small business programs, FPDS, and subcontracting.
The audit team used a Web site called surveymonkey.com to send the survey and collect the
responses. The survey was sent to all 61 USAID/Washington-based contracting officers on
May 7, 2012, and concluded May 23, 2012. Thirty-eight contracting officers responded to the
survey, allowing us to generalize the results of the survey to the population at a 95 percent
confidence level.




                                                                                          17
                                                                                      Appendix II



MANAGEMENT COMMENTS

MEMORANDUM

DATE:          September 10, 2012

TO:            Steven Ramonas, Director
               Office of Inspector General/A/PA

FROM:          Aman Djahanbani, Director /s/
               Management Bureau, Office of Acquisition and Assistance

               Mauricio Vera, Director /s/
               Office of Small and Disadvantaged Business Utilization

SUBJECT:       Response to Audit of USAID’s Small Business Utilization practices
               (Report No. 9-00-12-00X-P)

Thank you for the opportunity to comment on the Office of Inspector General’s (IG) draft report
for the audit of USAID’s small business utilization practices. The Offices of Acquisition and
Assistance (M/OAA) and Small and Disadvantaged Business Utilization (OSDBU) offer the
following comments in response to your draft recommendations:

1. OSDBU implement a plan to continually engage and educate the program and technical
   offices, and contracting officers in the design phase of an acquisition activity (page 6).

The OSDBU continues to engage and educate program and contracting officials through its
establishment and communication of individual bureau small business goals and training as
further discussed below.

Engagement Plan

As a result of establishing individual small business goals for each bureau and independent office
(IO) early in the fiscal year, the OSDBU will be engaged early in the acquisition planning
process. The OSDBU will schedule meetings with each bureau and IO to 1) negotiate small
business goals; and 2) engage in discussions concerning upcoming activities by December 31,
2012. In addition, several bureaus agreed to invite the Small Business Specialist supporting their


                                                                                               18
                                                                                        Appendix II


activities to 1) participate in monthly acquisition meetings, and 2) provide guidance during the
planning process. Further engagement will be more formalized through the use of a Small
Business Coordination Form (1410-14) coordinated between the bureaus, contracting officials
and OSDBU as further discussed in this document.

Education Plan

OSDBU implemented the Small Business Programs Training pilot class in March of 2012. This
class serves to educate program officials and technical experts who serve as Contracting Officer
Representatives (COR), Contracting Officers (CO), and Contract Specialists (CS) on the
programs, policies, procedures, and laws related to providing maximum practical opportunities to
U.S. small businesses. Since the initial pilot class:
            Nine subsequent classes have been held in Washington DC, with over 140 USAID
            staff receiving training
            OSDBU successfully trained over 100 mission staff in Small Business training
            sessions conducted at USAID missions in El Salvador, Colombia, Peru, and Haiti in
            May 2012
            In August 2012, sessions were conducted in Ghana and Senegal and over 75 mission
            staff members were trained. Tele-video training was also conducted in August 2012
            for Benin, Mali and Burkina Faso
            Additional classes are currently being planned for both Washington DC personnel
            and overseas personnel

In addition to the various small business topics covered in the training, the sessions provide a
means for OSDBU to engage and educate program, technical, and acquisition staff about the
need to bring OSDBU into the acquisition planning stage early on.

2. OSDBU establish small business utilization goals by bureau and office (page 6).

On June 14, 2012, the OSDBU launched a pilot program to establish individual small business
goals for the agency’s top eight bureaus and IOs which had domestic obligations greater than
$10M in domestic awards in Fiscal Year (FY) 2011. The goals will be applicable to contract
awards where the place of performance is within the U.S. The OSDBU will negotiate and
establish FY’2013 small business goals for the remaining bureaus and IOs in Washington by
December 31, 2012. In FY 2013 the OSDBU will begin tracking small business awards issued
by the USAID missions, but it will not set mission level goals.

3. OSDBU and OAA issue guidance that defines key areas of authority and strengthen
   policies and procedures over the review of proposed subcontracting plans and on
   monitoring and enforcement of approved subcontracting plans (page 8).

                                                                                                   19
                                                                                         Appendix II



OSDBU and M/OAA have been reviewing the understanding and perceptions of M/OAA
personnel regarding when subcontracting plans are required, how subcontracting achievements
are reported, the process for monitoring subcontractor utilization, and accepting or rejecting
reports in the electronic subcontracting reporting system (eSRS). We agree that there is a need
for guidance to be disseminated to USAID acquisition professionals.

While federal acquisition regulations are clear in regards to subcontracting requirements for
domestic procurements, how USAID applies them in overseas procurements is inconsistent. In
order to clarify the issues, OSDBU has submitted a “Rule Making Facilitation” statement of
work to M/OAA. M/OAA subsequently issued a solicitation for “Rule Making Facilitation”, via
small business set-aside procedures, to federal supply schedule holders. This will result in a
contract that will be awarded to a small business that is an expert in the field of rule-
making. The firm will conduct an analysis of several issues relative to small business
utilization. One such issue they will address is “Can USAID require prime contractors to submit
subcontracting plans even when contract performance takes place outside of the US or would
federal acquisition regulation 19.702-(b)(3) prohibit USAID from asking for subcontracting
plans and having the subcontracting achievements reported via the eSRS system?”

Once the “performance outside of the U.S.” issue is resolved, we will be able to provide more
definitive direction to acquisition professionals who award USAID contracts outside of the
US. In the interim, OSDBU and M/OAA will draft a Procurement Executive Memorandum
(PEB) to clarify when subcontracting plans are applicable, the process for obtaining OSDBU
clearance on subcontracting plans, and the key post-award roles and responsibilities for
monitoring subcontracting utilization (Ref: FAR 19.705-6). We anticipate issuance of the PEB
in Fiscal Year (FY) 2013.

OSDBU is having the contractor that maintains the Fedview Dashboard report add a report
capability that will provide a listing of contracts that likely require subcontracting plans. This
will serve as another tool for the Subcontracting Program Manager to check if subcontracting
plans have been required in contracts and if the contracting officer has provided a copy of the
plans to OSDBU for clearance.

4. OSDBU and OAA train procurement personnel on the review of proposed
   subcontracting plans and on monitoring and enforcement of approved subcontracting
   plans (page 8).

OSDBU initiated a Small Business Programs class during the 2nd quarter of fiscal year (FY)
2012. This class provides basic information about subcontracting reporting and monitoring.



                                                                                                     20
                                                                                      Appendix II


In September 2012, OSDBU will conduct its first subcontracting training session specifically for
USAID prime contractors. The Commercial Market Representative (CMR) from the Small
Business Administration (SBA) will cover subcontracting regulations, reporting requirements,
the electronic subcontracting reporting system (eSRS), and applicable regulations from the Jobs
Act. Feedback from the prime contractor participants will be incorporated into a training class
for USAID acquisition professions.

In FY 2013, OSDBU will initiate a subcontracting training class for USAID acquisition
personnel. This class will be focused specifically on the subcontracting monitoring roles and
responsibilities of acquisition personnel, the required elements of subcontracting plans, and the
utilization of the eSRS system. This class will be vital to improving the understanding of the
USAID acquisition workforce regarding the utilization of eSRS and the monitoring of prime
contractors’ adherence to their established subcontracting goals, in accordance with FAR 19.705-
6. Information developed from the rule making facilitation contract will be utilized to update the
class material regarding procurements awarded outside of the U.S.

5. OSDBU and OAA implement an Agency-wide mechanism to track active prime
   contracts that have approved subcontracting plans (page 9).

A draft PEB that updates the contract award distribution form is currently undergoing the
clearance process. This PEB requires that electronic copies of subcontracting plans be provided
to the USAID Subcontracting Program Manager and to the SBA Area Director in the SBA area
where the contract will be performed [Ref: FAR 19.705-6]. It is anticipated that clearance
and implementation of the PEB will occur no later than the first quarter of FY 2013.

The OSDBU Subcontracting Program Manager is implementing a process that will maintain
electronic copies of the subcontracting plans received and a spreadsheet to track the approved
plans from the date of receipt through contract close-out. This process will be implemented in
October 2012. This will serve as a tool to ensure that subcontracting goals in the eSRS system
are correctly entered and that acquisition personnel responsible for monitoring subcontracting
compliance have reviewed and approved subcontracting plans (Ref: 19.705-6
and 19.706).

6. OAA fix the external reporting configuration error in GLASS. In addition, actions that
   are not reported to the federal procurement data system must be identified and
   recorded according to the Office of Management and Budget policies (page 12).

A communication from Global Acquisition and Assistance System (GLAAS) was released
worldwide on August 30, 2011 to address finalizing Federal Procurement Data System (FPDS)



                                                                                                 21
                                                                                    Appendix II


data after release of the award and the steps to follow. Concurrently, GLAAS guidance manuals
are also addressing this important step to avoid reporting errors in the future.

7.    OAA Correspond with the appropriate agencies to resolve how personal services
     contracts data are reported in the federal procurement data system and document the
     resolution (page 12).

M/OAA understands that this recommendation is based on language found in the SBA’s
“Goaling Guidelines for the Small Business Preference Programs,” that personal services
contracts (PSC) should not be reported to FPDS. However, as the draft Audit Report states, the
Goaling Guidelines exception for reporting to FPDS applies to PSCs issued under 5 U.S.C. 3109,
which is not the authority USAID uses to contract for personal services. USAID has several
statutory authorities for contracting for personal services, including (but not limited to) the
Foreign Assistance Act of 1961 Section 636(a) and various Appropriation Acts. M/OAA
considers its PSCs to be definitive contracts, and as required in FAR 4.606, we must report them
to FPDS, so corresponding with other agencies on this matter is unnecessary. M/OAA will
continue to work with OSDBU as needed to identify these contracts as not appropriate for
inclusion in the base for Small Business goals.

8. OAA reassess data entry and validation controls over key small business data elements
   and make the necessary adjustments to strengthen the controls in the information
   technology systems (page 12).

Adjustments to GLAAS will be implemented during the first quarter of FY’2013 to coordinate
the OSDBU review of Washington prime contract actions and subcontracting plans prior to
posting a solicitation on the Federal Business Opportunities (FBO) website and prior to the
issuance of an award or contract modifications. The following is a summary of the details
regarding the review of prime contract awards and subcontracting plans:

Prime Contractor Level

Actions will be routed to OSDBU for all actions at or above $25,000 (lowered from $100,000) in
the solicitation stage. For such actions, the below changes will be made in GLAAS:
        Small Business Review Form 1410-14 will be loaded in the GLAAS library
        Mandatory questions included for both solicitation and pre-award stage in GLAAS:
             o Is the Small Business Review Form 1410-14 approved by OSDBU (required for
                actions $25,000 and above)?”
             o The date OSDBU approved the action?
        The CO will load the final 1410-14 form with signatures as a part of the GLAAS award
        documents.


                                                                                              22
                                                                                      Appendix II


       A report query will be developed to track the 1410-14 approvals and distributed on a
       weekly basis to OSDBU.

Subcontractor Plan

The existing mandatory question in GLAAS regarding subcontract plans will be changed to the
below:
       “Is a subcontracting plan required?”(Note: In accordance with FAR 19.702, domestic
       contracts (excluding task orders) valued at $650K or $1.5M for construction requires a
       plan if not a small business prime).” Y/N
       A report query will be developed to track the subcontracting plans and distributed on a
       weekly basis to OSDBU.

9. OSDBU and OAA review and implement guidance to reflect current operating policies
   and procedures for the small business utilization program (page 13).

The OSDBU and M/OAA will review and implement guidance to reflect current operating
policies and procedures for the small business program via the agency’s Acquisition Regulations
(AIDAR) and its new Small Business Policy Program Manual (SBPM).

In 2010 the agency implemented the Board for Acquisition and Assistance Reform (BAAR) to
review procurement at $75M to strengthen oversight, enhance competition and create
transparency in the agency’s acquisition process. USAID’s senior officials including the
OSDBU Director, serves as a BAAR panel member. The BAAR panel members review and
address the acquisition strategy of high profile procurements to ensure maximum practicable
opportunities for small business concerns. The OSDBU and M/OAA will incorporate language
which addresses the BAAR into the Automated Directives System and create the SBPM by the
end of Fiscal Year (FY) 2013.

AIDAR 719.273-10(a)(3) refers to the establishment of an internal control for “Reviewing and
evaluating financial reports and invoices submitted by the Mentor to verify that USAID is not
charged by the Mentor for providing developmental assistance to the Protégé.” The Mentor
Protégé Program does not make any costs associated with the Mentor Protégé Program an
allowable cost under any USAID contract. A notice to that affect is posted on the OSDBU
mentor protégé program intranet web page.

As currently written, AIDAR 719.273-10(a)(3) incorrectly gives the impression that OSDBU
reviews invoices. This section of AIDAR 719.273-10 will be revised. In addition, guidance will
be issued to notify contracting officials that costs associated with mentoring a protégé firm are
not allowable costs to invoice against a contract.


                                                                                                23
                                                                                      Appendix II



The Mentor Protégé Program Manager posts announcements on the “USAID CO Network” e-
mail group when new Mentor Protégé Agreements are accepted into the program. In addition, a
listing of the Mentor Protégé Agreements is posted on the OSDBU intranet web page. OSDBU
will continue to publicize the agreements via the e-mail group and web page. The Mentor
Protégé Program is also stressed during the Small Business Programs class.

10.   OSDBU and OAA implement a plan to assess and strengthen controls over OSDBU’s
      automated screening of solicitations so that all required actions are routed
      appropriately (page 14).

Guidance and adjustments to GLAAS will be implemented during the first quarter of FY 2013.
As referenced in the response to Question 8, the OSDBU revised its Small Business Review
Form 1410-14 to assess and strengthen controls associated with the pre-solicitation and pre-
award process. The form will be used in conjunction with GLAAS reviews to ensure that the
contracting officials satisfy market research requirements, consider small business concerns, and
address subcontracting. M/OAA will create a “Route Rule” in GLAAS to forward required
actions at or above $25,000 to OSDBU for review prior to posting a solicitation or an award.
The Form 1410-14 will be incorporated into the acquisition review process during FY’2013.




                                                                                               24
                                                              Appendix III


Fiscal Year 2011 USAID Small Business Procurement Scorecard – Page 1




                                                                       25
                                                              Appendix III


Fiscal Year 2011 USAID Small Business Procurement Scorecard – Page 2




                                                                       26
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
